<html>
<title> - H.R. 1906, H.R. 2818 and H.R. 3936</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 1906, H.R. 2818 and H.R. 3936
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 16, 2002

                               __________

                           Serial No. 107-104

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                           U.S. GOVERNMENT PRINTING OFFICE
78-733                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                
      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado






                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 16, 2002...................................     1

Statement of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah, Prepared statement on H.R. 3936.............    16
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii............................................     6
        Prepared statement on H.R. 1906..........................     7
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 1906, H.R. 2818, and H.R. 3936     2
    Simpson, Hon. Michael K., a Representative in Congress from 
      the State of Idaho.........................................    14
        Prepared statement on H.R. 2818..........................    15

Statement of Witnesses:
    Finfer, Larry, Assistant Director for Communications, Bureau 
      of Land Management, U.S. Department of the Interior, 
      Washington, D.C............................................    17
        Prepared statement on H.R. 2818..........................    19
        Prepared statement on H.R. 3936..........................    18
    Manning, Gloria, Associate Deputy Chief for the National 
      Forest System, U.S. Forest Service, Washington, D.C........    20
        Prepared statement on H.R. 3936..........................    22
    Morrow, Dave, Deputy Director, Division of Parks and 
      Recreation, Utah Department of Natural Resources, Salt Lake 
      City, Utah.................................................    30
        Prepared statement on H.R. 3936..........................    31
    Nielson, Bryce, County Commissioner, Rich County, Utah.......    40
        Prepared statement on H.R. 3936..........................    41
    Smith, Dan, Special Assistant to the Director, National Park 
      Service, U.S. Department of the Interior, Washington, D.C..    23
        Prepared statement on H.R. 1906..........................    24
    Williams, Gene, Sandhills Resort, Inc., St. Anthony, Idaho...    26
        Prepared statement on H.R. 2818..........................    27

Additional materials supplied:
    Maps of proposed Shoshone National Recreation Trail System 
      submitted for the record by The Honorable George Radanovich     3
    The Wilderness Society, et al., Statement submitted for the 
      record.....................................................    44


 H.R. 1906, TO AMEND THE ACT THAT ESTABLISHED THE PU'UHONUA O HONAUNAU 
 NATIONAL HISTORICAL PARK TO EXPAND THE BOUNDARIES OF THAT PARK; H.R. 
  2818, TO AUTHORIZE THE SECRETARY OF THE INTERIOR TO CONVEY CERTAIN 
PUBLIC LAND WITHIN THE SAND MOUNTAIN WILDERNESS STUDY AREA IN THE STATE 
OF IDAHO TO RESOLVE AN OCCUPANCY ENCROACHMENT DATING BACK TO 1971; AND 
H.R. 3936, TO DESIGNATE AND PROVIDE FOR THE MANAGEMENT OF THE SHOSHONE 
           NATIONAL RECREATION TRAIL, AND FOR OTHER PURPOSES.

                              ----------                              


                        Tuesday, April 16, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. OK. Welcome to the Subcommittee hearing 
today. This is the Subcommittee on National Parks, Recreation 
and Public Lands, and we will hear testimony on three bills 
today, H.R. 1906, H.R. 2818 and H.R. 3936. The first bill is 
H.R. 1906, introduced by Congresswoman Patsy Mink, who is here 
with us today.
    Patsy--and again this would expand the Pu'uhonua O Honaunau 
National Historical Park by 805 acres. This park has become a 
legacy of Hawaiian culture, housing some of the most 
significant artifacts of this island's early village life. It 
is my understanding that the expansion would include resources 
that would have been included in the park boundary when it was 
established in 1955.
    Our next bill is H.R. 2818, introduced by our Subcommittee 
colleague, Congressman Mike Thompson. It would authorize--Mike 
Simpson--and it would authorize the Secretary of the Interior 
to convey approximately 10.23 acres within the Sand Mountain 
Wilderness Study Area in the State of Idaho to the Sandhills 
Resort to resolve occupancy encroachment dating back to 1971.
    Our last bill is H.R. 3936, introduced by the Full 
Committee Chairman, Congressman Jim Hansen, and would designate 
and provide for the management of the Shoshone National 
Recreation Trail and for other purposes. In order to compensate 
for the growing demand of off-highway vehicles in northern 
Utah, H.R. 3936 would designate already-existing trails as part 
of the national recreational trail system.
    Congressman Hansen was stranded in Utah today, but we are 
going to go on with the hearing and, of course, accept his full 
statement into the record.
    At this time I ask unanimous consent that Congresswoman 
Mink be permitted to sit on the dais following the statement. 
Without objection, so ordered.

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
  on National Parks, Recreation, and Public Lands, on H.R. 1906, H.R. 
                          2818, and H.R. 3936

    Good morning and welcome to the hearing today. The Subcommittee 
will come to order. This morning, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on three bills, H.R. 
1906, H.R. 2818 and H.R. 3936.
    The first bill, H.R. 1906, introduced by Congresswoman Patsy Mink, 
would expand the Pu'uhonua O Honaunau National Historical Park by 805 
acres. This park has become a legacy of Hawaiian culture, housing some 
of the most significant artifacts of the island's early village life. 
It is my understanding the expansion would include resources that 
should have been included in the park boundary when it was established 
in 1955.
    Our next bill, H.R. 2818, introduced by our Subcommittee colleague, 
Congressman Mike Simpson, would authorize the Secretary of the Interior 
to convey approximately 10.23 acres within the Sand Mountain Wilderness 
Study Area in the State of Idaho to the Sandhills Resort to resolve 
occupancy encroachment dating back to 1971.
    Our last bill, H.R. 3936, introduced by the Full Committee 
Chairman, Congressman Jim Hansen, would designate and provide for the 
management of the Shoshone National Recreation Trail, and for other 
purposes. In order to compensate for the growing demand of off-highway 
vehicles in Northern Utah, H. R. 3936 would designate already existing 
trails as part of the National Recreational Trails system.
    Once again, I appreciate the witnesses being here to testify today 
and I now turn the time over to the ranking member, Mrs. Christensen 
for an opening statement.
                                 ______
                                 
    [Maps submitted for the record by Mr. Radanovich follow:]
    [GRAPHIC] [TIFF OMITTED] 78733.010
    
    [GRAPHIC] [TIFF OMITTED] 78733.011
    
    [GRAPHIC] [TIFF OMITTED] 78733.012
    
    And Mrs. Christensen, Ranking Member, will not be here 
today, but we will go ahead and start then with the witnesses.
    Congresswoman, it is a pleasure to have you before the 
Committee and please proceed.

   STATEMENT OF THE HON. PATSY T. MINK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF HAWAII

    Mrs. Mink. Thank you very much. The bill which I am 
presenting today, H.R. 1906, represents a very historic, 
culturally significant establishment on the Kona coast of the 
Big Island; and my bill calls for the authorization of 805 
acres to be added to the Pu'uhonua O Honaunau National Historic 
Park.
    Mrs. Mink. The bill has also been introduced in the Senate. 
Senator Akaka introduced S. 1057, which was passed by the 
Senate, and has a reduced acreage of 397 acres. The difference 
is shown in the map which I have illustrated there. The green 
area marked over to the right of the map is the difference 
between the Senate bill and my bill. I seek to add the 
additional portion there, which is marked in green. I believe 
you have this in your testimony papers.
    The city of Refuge National Historic Park, which is the 
Pu'uhonua O Honaunau National Historic Park, was authorized in 
1955. It was established formally in 1961. It is a very 
historic park. We believe that the historic evidence is back to 
the 12th and 13th century. It was a place where native 
Hawaiians could seek refuge if they were being hunted down by 
someone, threatened with criminal offenses and so forth. They 
could find refuge there and be saved, and at some point later 
be allowed to leave the lands.
    The proposed addition contains 800 cultural sites, 25 
caves, a minimum of 10 heiau (the native Hawaiian temples), 20 
platforms, 26 enclosures, 40 burial features, and many, many 
other remnants of trails and other historic evidences of the 
ancient culture. We feel that it is extremely important that 
this park be extended to the areas that we have indicated.
    The coastal waters are pristine class AA waters, and with 
the absence of development in the area, the coast is absolutely 
gorgeous. We have problems of runoff in other areas because of 
development, and therefore, the extension of this park at this 
time is very, very critical.
    Burial sites are a particularly sensitive issue in Hawaii; 
they are considered very sacred. And so the set-aside of these 
lands because of the burial sites is very, very important.
    The local community is in strong support of the 
incorporation of the full 805 acres to the Pu'uhonua O Honaunau 
National Historic Park. I would like to submit a copy of our 
Hawaii County Council Resolution 149-01 in support of my bill, 
H.R. 1906, and the 108-acre expansion.
    I would also ask unanimous consent that the testimony of 
Hawaii County Council member Nancy Pisicchio be included in the 
record and in the files of the consideration of this bill, 
together with some 150 communications that she has submitted to 
me for inclusion in the record, if I may have your consent to 
do that. Thank you.
    Mr. Radanovich. Without objection, so ordered.
    Mrs. Mink. It is, of course, my intense interest to have 
all of the 800-plus acres to be included in the park. But I am 
also aware that the Senate, having passed S. 1057 in October, 
2001, also made appropriations available, subject to the 
authorization. It is critical that a bill pass and be signed 
into law or we will forfeit the amount of money that has been 
set aside in the appropriations bill.
    Therefore, for the purposes of this markup, Mr. Chairman, I 
would ask that the bill--my bill be amended so that it would 
include the precise acreage as specified in the Senate bill, S. 
1057, in order to move this bill forward. I would also, 
however, like to ask the Subcommittee, in the legislation, to 
request that the National Park Service do a reconnaissance 
study of the remaining 400 acres, which are not covered in S. 
1057, in order to establish the rationale for this inclusion 
which I hope we can do perhaps in the next session.
    On behalf of the people of Hawaii and certainly the people 
in the County of Hawaii and all the native Hawaiian 
organizations, I would like to thank this Committee and 
Chairman Radanovich for his interest in this matter. And I am 
very grateful for whatever assistance you can provide to move 
this bill forward that it may reach final passage this year. 
Thank you.
    Mr. Radanovich. Thank you very much, Patsy, and again you 
are more than welcome to join us on the dais for the remainder 
of this hearing.
    [The prepared statement of Mrs. Mink follows:]

Statement of The Honorable Patsy T. Mink, a Representative in Congress 
                 from the State of Hawaii, on H.R. 1906

    Chairman Radanovich, Ranking Member Christensen, and Members of the 
Subcommittee
    First, I want to thank the Subcommittee for holding this hearing on 
H.R. 1906, which authorizes the expansion of Pu'uhonua O Honaunau 
National Historical Park, a unique national treasure located in South 
Kona on the island of Hawaii.
    I introduced H.R. 1906 with Representative Abercrombie in May 2001. 
Senator Daniel Akaka also introduced a bill, S. 1057, in June 2001, to 
expand the boundaries of the Park. The major difference between the 
bills is amount of land authorized for expansion. H.R. 1906 authorizes 
805 acres whereas S. 1057 authorizes 397 acres. I submit a map showing 
the current area of the Park (180 acres), the area authorized by S. 
1057 (397 acres), and the area authorized by H.R. 1906 (805 acres).
    Pu'uhonua O Honaunau National Historical Park, formerly known as 
the City of Refuge National Historical Park, was authorized by an act 
on Congress on July 26, 1955 (60 Stat.376) . . . for the benefit and 
inspiration of the people. . .'' The park was formally established in 
1961. All the lands included within the park are listed on the National 
Register of Historic Places.
    The overall management goal for the historical park is for the 
resources to accurately represent a slice of time ranging from pre-
contact (circa 12th - 13th century) to about 1930, when Ki'ilae village 
was completely abandoned. The objectives developed to meet that goal 
focus on preservation, stabilization, and restoration of the park's 
cultural and natural resources.
    A significant portion of the ancient Hawaiian village of Ki'ilae 
lies outside of the current park's boundaries. The proposed addition of 
805 acres, located within the traditional land divisions of Ki'ilae 
ahupua'a <SUP>1</SUP> and Kauleoli ahupua'a, contains significant 
cultural and natural resources, which complement the Park's mission of 
preservation and rehabilitation of Hawaiian natural, cultural, and 
historic resources. These lands contain at least 800 cultural sites, 
structures, and features; at least 25 caves (or cave openings), many of 
which are refuge caves; a minimum of 10 heiau (temples); more than 20 
platforms; 26 enclosures; over 40 burial features (or highly probable 
burials); trails and trail remnants; a minimum of 6 residential 
compounds; a holua slide; several canoe landing sites; a water well; 
numerous walls and wall remnants; and a wide range of agricultural 
features.
---------------------------------------------------------------------------
    \1\ An ahupua'a is a traditional Hawaiian land division that 
extends from the uplands or mountains to the sea.
---------------------------------------------------------------------------
    Ancient Native Hawaiian burial sites are a particularly sensitive 
issue in Hawaii. Many descendants of the Ki'ilae villagers live in the 
area and want to make sure that the graves of their ancestors are 
respected and that archaeological and historical sites are preserved. 
There are also important landmarks and rock formations on the land, 
which have been used by Native Hawaiians for generations to locate 
their fishing grounds.
    The area is also a place of great natural beauty and spiritual 
renewal. The Pu'uhonua was a place of safety and refuge where people 
who had violated kapu (taboo or sacred law) could flee to avoid what 
otherwise would be certain death. After being absolved by a kahuna 
(priest) they could go free. People often went to the Pu'uhonua during 
times of war to avoid the conflict.
    Ki'ilae Village, which is part of the area that would be added to 
the park by this bill, was also an important trading place for Native 
Hawaiians from the 12th century. The land provides a critical link to 
Hawaii's past and protects an ancient landscape in the face of 
encroaching residential sprawl along the Kona coast.
    The coastal waters in this area are pristine class AA because of 
the lack of development in the area and the fact that the coast is 
rocky and, therefore, little soil drains into the ocean. We have 
already experienced severe problems in other locations along the Kona 
coast where rain runoff from soil brought in for development polluted 
AA-class coastal marine resources.
    The local community strongly supports incorporation of the full 805 
acres into Pu'uhonua O Honaunau National Historical Park. I submit for 
the record a copy of Hawaii County Council Resolution 149-01 in support 
of H.R. 1906 and the 805-acre expansion. I also submit testimony from 
Hawaii County Council Member Nancy Pisicchio and the more than 150 
communications sent to the Council Member by her constituents over the 
past two weeks in support of H.R. 1906.
    Despite my desire to see the full area authorized, I would support 
amending H.R. 1906 to make it identical to S. 1057, which passed the 
Senate on October 17, 2001, in the hope that we will be able to 
promptly send a bill to the President. S. 1057 contains an 
authorization for up to 397 acres, and includes the 238-acre parcel 
considered most critical for protection by the National Park Service. 
Senator Akaka was successful in securing an appropriation of 
$500,000toward acquisition of this parcel in Fiscal Year 2002, but we 
must have an authorization before these funds can be spent. The 238-
acre parcel (Parcel A on the map) has been purchased by the Trust for 
Public Land, which is holding it in trust for the National Park 
Service. The owner of Parcel B (the additional lands authorized in S. 
1057) has indicated a willingness to donate a major portion of these 
lands to the park.
    I wish to ask that this Subcommittee request the National Park 
Service do a reconnaissance study of the remaining 400+ acres not 
covered by S. 1057 to establish the extent of the historical, cultural, 
and natural resources in the portion of Kauleoli ahupua'a south of 
Parcels A and B.
    On behalf of the people of Hawaii, I extend a warm aloha to 
Chairman Radanovich and Ranking Member Christensen for your assistance 
in holding this hearing. I would be very grateful for your continued 
assistance in moving the bill through the Subcommittee and Committee 
and to allow its final passage by the whole House.
    Thank you.
                                 ______
                                 
    (Attachments to Mrs. Mink's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 78733.015
    
    [GRAPHIC] [TIFF OMITTED] 78733.016
    
    [GRAPHIC] [TIFF OMITTED] 78733.017
    
    [GRAPHIC] [TIFF OMITTED] 78733.001
    
    [GRAPHIC] [TIFF OMITTED] 78733.002
    
    Mr. Radanovich. Our next panel will be--I just wanted to 
say, I know how to do Pu'uhonua O Honaunau, but I have a hard 
time with Simpson. I apologize. But for an opening statement, 
please proceed and we will go on to our next statement.

 STATEMENT OF THE HON. MICHAEL K. SIMPSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Simpson. That you, Mr. Chairman. I suggested to you 
that this Subcommittee needs to have a more direct input into 
this proposed expansion in Hawaii, so I am suggesting that the 
Subcommittee go over and take a look at it personally and 
decide what we need to do that.
    Mrs. Mink. Absolutely. But don't delay passage of the bill.
    Mr. Simpson. Thank you, Mr. Chairman, for scheduling the 
hearing on H.R. 2818 to convey approximately 10 acres of public 
land located within the Bureau of Land Management Sand Mountain 
Wilderness Study Area, located near Saint Anthony in southeast 
Idaho, to the owner of the Sandhills Resort. The Sandhills 
Resort will pay fair market value for the land as valued by an 
appraisal.
    Mr. Simpson. In 1971, Mr. Williams, who is with us today to 
testify--he is the current owner of the Sandhills Resort--
purchased the 5-acre resort and existing developments, and over 
the ensuing 31 years had added numerous improvements to the 
property. The resort is a gateway to the Sandhills sand dunes, 
a popular recreational area in southeast Idaho. The land 
comprising the resort was originally conveyed out of Federal 
ownership in 1953, when the BLM sold 5 acres of public lands 
adjacent to the Saint Anthony Sand Dunes.
    Over the years numerous improvements were made to the 
property, including a bar, restaurant, dance hall and swimming 
pool. When Mr. Williams purchased the land in 1971, he 
converted the existing improvements to a recreational 
development, catering to campers and users of the sand dunes. 
Unfortunately, the 5-acre resort was inadvertently included in 
the BLM's Sand Mountain Wilderness Study Area boundary, which 
was established in 1981.
    Mr. Williams successfully operated the resort until the 
early 1990's, when the BLM began to question the location of 
the resort and several facilities located on the resort. In 
1995, a survey was initiated confirming that the majority of 
the resort's facilities, including a portion of Mr. Williams' 
house, were encroaching on public lands. Since June 1998, the 
resort has operated under a Special Use, Special Land Use 
Permit which temporarily authorizes Mr. Williams' use of the 
public land in question and allows BLM to collect fair market 
rent.
    In June 1997, the BLM began to work to sell Mr. Williams' 
10 acres of land in order to resolve the encroachment issue. In 
September 1997, the BLM published a notice of intent to prepare 
a land use plan amendment, the first step of a process that 
would have adjusted the boundary of the Sand Mountain 
Wilderness Study Area and allowed the BLM to sell approximately 
10 acres of the Sandhills Resort. Unfortunately, the local BLM 
office was not able to move forward with the plan amendment due 
to concerns from the BLM Idaho State office that the proposed 
sale violated the BLM's interim management policy for 
wilderness study area management.
    While the 10 acres in question is located within the Sand 
Hill Mountains Wilderness Study Area, I would like to point out 
to my colleagues when the Sand Hill Mountains Wilderness Study 
Area boundary was drawn, it mistakenly included the Sandhills 
Resort and a small strip of land containing roads, camping 
sites, and a power line. According to the BLM, ``The 
developments impair the naturalness of the wilderness study 
area and should not have been included within the WSA 
boundary.'' it is quite clear that the sale area, which 
contains various facilities--as I said, camp sites, roads and 
power lines--does not have the characteristics which make it 
suitable for wilderness.
    Unfortunately, until the encroachment issue is resolved, 
Mr. Williams cannot gain clear title to his property, 
preventing him from obtaining a loan against the property or 
making improvements to the property. Furthermore, this prevents 
Mr. Williams or his family from selling the resort, placing an 
undue financial hardship on Mr. Williams and his family. This 
common-sense legislation will allow BLM to resolve the 
longstanding encroachment problems and allow Mr. Williams to 
gain clear title to this property.
    Thank you, Mr. Chairman, again for holding this hearing and 
the opportunity to present this legislation to the Committee.
    Mr. Radanovich.  Thank you, Mr. Simpson.
    [The prepared statement of Mr. Simpson follows:]

    Statement of The Honorable Michael Simpson, a Representative in 
             Congress from the State of Idaho, on H.R. 2818

    Mr. Chairman:
    Thank you for scheduling this hearing on H.R. 2818.
    H.R. 2818 is a simple, straightforward bill that would convey 
approximately ten acres of public land located within the Bureau of 
Land Management Sand Mountain Wilderness Study Area, located near St. 
Anthony in southeast Idaho, to the owner of the Sandhills Resort. The 
Sandhills Resort will pay fair market value for the land as valued by 
an appraisal.
    In 1971, Mr. Williams, the current owner of the Sandhills Resort, 
purchased the five-acre resort and existing developments and over the 
ensuing thirty-one years has added numerous improvements to the 
property. The resort is a gateway to the St. Anthony Sand Dunes, a 
popular recreational area in southeast Idaho. The land comprising the 
resort was originally conveyed out of Federal ownership in 1953, when 
the BLM sold five acres of public land adjacent to the St. Anthony Sand 
Dunes. Over the years, numerous improvements were made to the property, 
including a bar, restaurant, dance hall, and swimming pool. When Mr. 
Williams purchased the land in 1971, he converted the existing 
improvements to a recreational development catering to campers and 
users of the sand dunes. Unfortunately, the five-acre resort was 
inadvertently included in BLM's Sand Mountain WSA boundary, which was 
established in 1981.
    Mr. Williams successfully operated the resort until the early 
1990's when the BLM began to question the location of the resort and 
several facilities located on the resort. In 1995, a survey was 
initiated confirming that the majority of the resort's facilities, 
including a portion of Mr. Williams house, were encroaching on public 
land. Since June of 1998, the resort has operated under a Special Land 
Use Permit, which temporarily authorizes Mr. Williams's use of the 
public land in question and allows the BLM to collect a fair market 
rent.
    In June of 1997, the BLM began working to sell Mr. Williams ten 
acres of land in order to resolve the encroachment issue. In September 
of 1997, the BLM published A Notice of Intent to Prepare a Land Use 
Plan Amendment, the first step of a process that would have adjusted 
the boundary of the Sand Mountain WSA and allowed the BLM to sell 
approximately ten acres to the Sandhills Resort. Unfortunately, the 
local BLM office was not able to move forward with the plan amendment 
due to concerns from the BLM Idaho State office that the proposed sale 
violated BLM's Interim Management Policy for Wilderness Study Area 
Management.
    While the ten acres in question is located within the Sand Mountain 
WSA, I would like to point out to my colleagues that when the Sand 
Mountain Wilderness Study Area boundary was drawn, it mistakenly 
included the Sandhills Resort and a small strip of land containing 
roads, camping sites, and a power line. According to the BLM, ``the 
developments impair the naturalness of the WSA and should not have been 
included within the WSA boundary.'' It is quite clear that the sale 
area, which contains various facilities, camping sites, roads, and 
power lines, does not have characteristics which make it suitable for 
wilderness.
    Unfortunately, until the encroachment issue is resolved, Mr. 
Williams cannot gain clear title to his property, preventing him from 
obtaining a loan against the property or making improvements to the 
property. Furthermore, this prevents Mr. Williams or his family from 
selling the resort, placing an undue financial hardship on Mr. Williams 
and his family.
    This common-sense legislation will allow the BLM to resolve the 
long-standing encroachment problem, and allow Mr. Williams to gain 
clear title to his property.
    Thank you, Mr. Chairman, for the opportunity to bring this 
legislation before the Committee.
                                 ______
                                 
    Mr. Radanovich.  And, again, Mr. Hansen would have an 
opening statement on H.R. 3936, but he is not here. So with 
there being no objection, we will submit his opening statement 
for the record. There being no objection, so ordered.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                        Resources, on H.R. 3936

    Thank you Mr. Chairman and Members of the Subcommittee.
    I am pleased to have Mr. Dave Morrow from the Utah Department of 
Natural Resources and Mr. Bryce Nielson, County Commissioner from Rich 
County, Utah with us at our hearing today. I am very appreciative of 
the time and hard work that they have invested, together with other 
local officials, in the introduction of this legislation.
    Mr. Chairman, H.R. 3936 would designate approximately 337 miles of 
existing trails, already open to OHV's in northern Utah, as the 
Shoshone National Recreation Trail. It would also allow for the 
addition of connecting and side trails, to be added administratively 
through existing authority, once local counties have identified 
appropriate access points and local trails through their communities. 
Once these connecting and side trails are added, it is expected that 
there will be over 500 miles of trails in the system.
    In 1968, Congress responded to the public's desire for additional 
outdoor recreation opportunities by enacting the National Trails System 
Act. This Act allowed for the creation of a National Recreation Trail 
system. However, despite being cited specifically in the Act, these 
recreation activities have not been well represented in the trail 
system. In recent years, Utah has seen a dramatic increase in the 
number of registered OHV's. This growth has presented Federal and state 
land managers with the difficult challenge of finding and identifying 
appropriate places to ride for this growing group of recreationists. 
Experience has shown that when an organized system of trails has been 
identified that it becomes easier to direct these recreational 
activities to appropriate places and to protect the areas where OHV 
riding would not be appropriate. This bill is a proactive attempt to 
channel this growing recreation activity. In fact, many who are not 
generally supportive of OHV recreation have expressed their support for 
this legislation because of its ability to channel these activities.
    This bill will designate only those trails that are already open to 
OHV use and are recognized in the local Forest Service and BLM travel 
plans. However, as provided in the National Trails System Act, the 
legislation allows that additional trails may be added at a future 
point, through the normal process.
    Prior to the introduction of this legislation, meetings were held 
with locally elected officials in each affected county. Based upon 
their input, meetings were held with local Forest Service and BLM 
personnel to identify appropriate routes for the trail system. 
Consequently, some routes under previous consideration have been 
deleted. This has resulted in a system of trails with broad support 
that is supported by the local counties and Federal land managers.
    I believe this is a win-win proposal. It is not only a positive for 
those who enjoy OHV riding as a recreation activity, but is also a 
positive for those who want to ensure that OHV riding takes place in 
appropriate areas and avoids sensitive locations.
    Once again, thank you Mr. Chairman and Members of the Subcommittee 
for the opportunity to address the merits of this legislation.
                                 ______
                                 
    Mr. Radanovich.  Now, thank you, Panel 2: Mr. Larry Finfer, 
the Assistant Director for Communications at BLM; Ms. Gloria 
Manning, Associate Deputy Chief for the National Forest 
Service; and Mr. Dan Smith, Special Assistant to the Director 
of the National Park Service. Welcome to the Committee. We have 
a panel after you, so I ask everyone to stay within the 5-
minute warning. If you don't know the system, green means go, 
yellow means hurry up, and red means stop.
    Mr. Radanovich.  So we will go ahead and start with Mr. 
Larry Finfer.
    Mr. Finfer, welcome and please begin your testimony.

    STATEMENT OF LAWRENCE A. FINFER, ASSISTANT DIRECTOR FOR 
           COMMUNICATIONS, BUREAU OF LAND MANAGEMENT

    Mr. Finfer. Thank you, Mr. Chairman, I am here to testify 
on two bills, H.R. 3936, the Shoshone National Recreational 
Trail Act, and H.R. 2818, an act to convey certain public lands 
in the Sand Mountain Wilderness Study Area in Idaho. I 
submitted statements on both, which I request be included in 
the record, and I will keep my remarks brief.
    Mr. Finfer. As to H.R. 3936, while the U.S. Forest Service 
is the primary land manager within the proposed trail area, the 
bill also encompasses existing trails on BLM-administered lands 
primarily in the eastern portion of the area in question. The 
administration supports this bill and looks forward to working 
with the Committee and our partners in Utah on its 
implementation. Once designated, the Shoshone National 
Recreation Trail will provide a high-quality, interconnected 
trail network in Rich, Cache, Box Elder and Weber Counties in 
northeast Utah.
    According to the State of Utah's department of natural 
resources, the number of registered OHV users has doubled in 
the State since 1990. The BLM strongly supports the provisions 
in section 1(c)(2) of H.R. 3936, which promotes the use of 
cooperative agreements concerning the Secretaries of Interior 
and Agriculture, the State of Utah DNR, and appropriate county 
governments regarding trail management. We believe it 
imperative that a cooperative management plan and framework be 
established that includes all parties. This cooperative effort 
is consistent with Secretary Norton's ``4 C's'' principle, 
which stresses consultation, cooperation, and communication, 
all in the service of conservation.
    We appreciate Mr. Hansen's visible recognition of the 
importance of cooperative management, which he has provided in 
this bill. While supportive of the bill, we have identified 
some issues that need to be addressed in order to develop 
appropriate trailhead and staging facilities, maintenance and 
protections for resources we manage in this area and, further, 
to acknowledge other land resource users.
    We look forward to working with the Committee to address 
these concerns, which are noted in my testimony; and I thank 
you for the opportunity to comment on H.R. 3936.
    [The prepared statement of Mr. Finfer follows:]

 Statement of Lawrence A. Finfer, Assistant Director, Communications, 
  Bureau of Land Management, U.S. Department of the Interior, on H.R. 
                                  3936

    Thank you for the opportunity to appear before you today to provide 
testimony regarding H.R. 3936, the Shoshone National Recreation Trail 
Act. While the U.S. Forest Service is the primary Federal land manager 
within the proposed trail, the bill also encompasses 67 miles of BLM-
administered lands. The Department supports this bill and looks forward 
to working with the Committee and our partners in Utah on cooperative 
management strategies to implement H.R. 3936.
Bill Analysis and Background
    H.R. 3936 provides for the designation and management of a 521-mile 
system of trails in northeastern Utah to provide recreational access 
for motorized vehicles and other users as appropriate. In addition, we 
understand that the trail would serve as a ``connection'' for a number 
of small communities within the region by providing economic 
opportunities through services to recreational users of the trail. We 
further understand that H.R. 3936 enjoys strong local support within 
the State of Utah.
    Once designated, the Shoshone National Recreation Trail would 
provide 521 miles of scenic and high-quality interconnected trail 
segments in Rich, Cache, Box Elder, and Weber Counties in Northeast 
Utah. According to the State of Utah's Department of Natural Resources, 
the number of registered Off- Highway Vehicles (OHVs) has doubled in 
the State since 1990. H.R. 3936 will assist agencies such as the BLM in 
meeting the needs of this growing user group on Federal lands.
    The BLM strongly supports the provisions in Section 1 (c) (2) of 
H.R. 3936 which promotes the use of cooperative agreements between the 
Secretaries of the Interior and Agriculture and the State of Utah 
Department of Natural Resources and appropriate county governments 
regarding trail management. We believe that it is imperative that a 
cooperative management plan and framework be established that is 
inclusive of all parties involved in the trail, whether they are land 
owners or recreational users. This cooperative effort is consistent 
with Secretary Norton's ``4 Cs'' principle, which stresses 
consultation, cooperation and communication, all in the service of 
conservation.
Management Concerns
    While supportive of the concepts embodied in H.R. 3936, especially 
the use of existing trails, we have identified certain issues that need 
to be addressed in order to develop appropriate trail-head and staging 
facilities, trail maintenance, and protections for the resources BLM 
manages under the provisions of the Federal Land Policy and Management 
Act (FLPMA). We look forward to working with the Committee to address 
these concerns.
    Among our concerns, is the language contained in Section 3 of the 
bill, entitled ``Motorized and Non-motorized Use''. Section 3 states: 
``Non-motorized use of the Trail may be allowed to the extent that such 
use is compatible with motorized use.'' The BLM recommends that this 
section be amended to reflect the provisions in current regulations 
under 43 CFR 8342.1(c) which states: ``Areas and trails shall be 
located to minimize conflicts between off-road vehicle use and other 
existing or proposed recreational uses of the same or neighboring 
public lands, and to ensure the compatibility of such uses with 
existing conditions in populated areas, taking into account noise and 
other factors...'' This regulation promotes compatibility among the 
various uses of National Recreation Trails.
    The BLM has some further concerns regarding appropriate management 
of the Trail which include continued protection for lands that contain 
riparian areas, fragile soil types, big game crucial winter range, 
sensitive sage grouse habitat, and raptor nesting sites. To protect 
these species and the associated sensitive habitats, the BLM would need 
to continue the current seasonal restrictions on portions of the 
proposed routes. This should not be a major conflict with Trail system 
operation or deviate from the current management scenario. 
Additionally, two BLM campgrounds (Little Creek and Birch Creek) are 
proposed as trail heads for the system. One campground will require 
renovation, the second will require additional infrastructure. These 
concerns will need to be addressed through the cooperative management 
framework proposed in the bill.
Conclusion
    Thank you for the opportunity to comment on H.R. 3936. The BLM 
looks forward to participating in the cooperative management agreements 
and implementation of the Shoshone National Recreation Trail if 
designated. I would be happy to address any questions you may have.
                                 ______
                                 
    Mr. Finfer. I now turn my attention to H.R. 2818. The 
administration supports this bill, as its enactment will 
resolve a unique, longstanding problem involving the Sand 
Mountain Resort. The Sand Hill Resort is located on a 5-acre 
parcel in Saint Anthony, Idaho. It was established in 1971 when 
the current owner purchased an abandoned resort facility 
originally constructed in the 1950's. It is located within the 
current boundary of the Sand Mountain Wilderness Study Area and 
is completely surrounded by public lands.
    When the WSA boundary was approved in 1981, it included 
10.23 acres that contained, among other things, the resort's 
existing access road. At the time, neither BLM nor the owner 
realized that some of the resort's building utilities and 
facilities were located on the 10.23 acres. When a Cadastral 
survey was finally completed in 1997, it revealed that resort 
facilities, including showers, restroom, storage building, 
garage, camp sites and most of the owner's residence are 
located on public land within the WSA.
    H.R. 2818 seeks to effect a permanent solution to this 
problem, thereby obviating the need to issue and review the 
Special Land Use Permit under which the owner now operates. It 
authorizes the Secretary to convey the 10.23 parcel for fair 
market value determined by a qualified land appraisal. It also 
exempts the parcel from requirements of the Interim Management 
Policy for Lands Under Wilderness Review.
    The owners of the resort have had a long and positive 
relationship with the BLM. As I mentioned, the owner acted in 
good faith in purchasing the property. Neither he nor the BLM 
were aware of the boundary problems. Compounding the issue, the 
area was inadvertently included in the WSA when it was 
established in 1981, even though the lands in question do not 
have wilderness characteristics. This chain of events makes 
necessary a legislative remedy, and we appreciate Mr. Simpson's 
introduction to this bill which will indeed solve the problem.
    Accordingly, as H.R. 2818 will resolve the longstanding 
issue and correct an inadvertent mapping area affecting 
wilderness values and restore the integrity of the Sand 
Mountain Wilderness Study Area, we support the bill and look 
forward to any questions the Committee may have.
    Mr. Chairman, that concludes my testimony.
    Mr. Radanovich. Thank you very much, Mr. Finfer.
    [The prepared statement of Mr. Finfer follows:]

 Statement of Lawrence A. Finfer, Assistant Director, Communications, 
  Bureau of Land Management, U.S. Department of the Interior, on H.R. 
                                  2818

    Thank you for the opportunity to testify today on H.R. 2818, an act 
to convey certain public lands in the Sand Mountain Wilderness Study 
Area (WSA) in the State of Idaho to resolve an occupancy encroachment 
dating back to 1971. The Department supports H.R. 2818 as its enactment 
will resolve a long-standing problem involving the Sand Mountain Resort 
which has impacted the Bureau of Land Management's (BLM) efforts to 
effectively manage the lands located within the WSA. We thank 
Representative Simpson for his sponsorship of H.R. 2818 and his efforts 
to remedy this problem.
Background
    The Sandhills Resort is situated on a 5 acre parcel located in St. 
Anthony, Idaho. The Resort was established in 1971 when the current 
owner purchased an abandoned resort facility originally constructed in 
1953. The Resort is located within the current boundaries of the Sand 
Mountain WSA and is completely surrounded by public lands. When the WSA 
boundary was approved in 1981, it included 10.23 acres that contained, 
among other things, the Resort's existing access road. At the time, 
neither the BLM nor the Resort owner realized that some of the resort's 
buildings, utilities and facilities were located within the 10.23 
acres. However, a Cadastral survey was completed in 1997, which 
revealed that a majority of the resort's facilities, including showers 
and restrooms, storage buildings, garage, improved camp sites, and most 
of the owner's residence is located on public land within the WSA.
    As a result of this discovery, since June of 1998, the BLM has 
issued a land use permit to the Resort. However, the permit, which must 
be renewed every three years, is a temporary measure to allow for 
continued operation of the Resort without unduly impacting the land 
owner and his business. H.R. 2818 seeks to effectuate a permanent 
solution to this problem, thereby obviating the need for issuing and 
renewing the land use permit.
Bill Provisions
    H.R. 2818 authorizes the Secretary of the Interior to convey the 
10.23 parcel of land in question to the owner of the Resort for fair 
market value as determined by a qualified land appraisal. In order to 
facilitate the conveyance, the bill also exempts the parcel from the 
requirements of the Interim Management Policy for Lands Under 
Wilderness Review of the BLM and authorizes the Secretary to require 
such additional terms and conditions as the Secretary considers 
appropriate to protect the interests of the United States.
Conclusion
    The owners of the Resort have had a long and positive relationship 
with the BLM, as do the many off-highway vehicle users that frequent 
the Resort and the surrounding public lands in the Sand Mountain area. 
H.R. 2818 would resolve the long-standing issue surrounding the Resorts 
encroachment on public lands, would correct an inadvertent mapping 
error affecting wilderness values, and would restore the integrity of 
the Sand Mountain Wilderness Study Area. While H.R. 2818 has the 
positive benefit of resolving long-term management issues, it also 
enhances the cooperative partnerships and relationships with the 
constituents that use the public lands in this area for recreation and 
other approved uses.
    This concludes my testimony. I would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Radanovich. Next, Ms. Gloria Manning with the U.S. 
Forest Service. Gloria, welcome and please begin your 
testimony.

  STATEMENT OF GLORIA MANNING, ASSOCIATE DEPUTY CHIEF FOR THE 
          NATIONAL FOREST SYSTEM, U.S. FOREST SERVICE

    Ms. Manning. Thank you for inviting me to discuss H.R. 
3936. It would designate a series of existing and planned roads 
and trails in and around the Wasatch-Caches National Forest in 
Utah as the Shoshone National Recreation Trail.
    The Forest Service, the Bureau of Land Management, the 
State of Utah and local governments and other groups and 
individuals have been working for some time to establish the 
Shoshone Trail. Because H.R. 3936 is consistent with existing 
authority that allow the Secretaries of Interior and 
Agriculture to designate the existing portions of this trail 
system, and with land owner approval, those portions not on 
Federal lands, as a national recreation trail, we support 
enactment of this bill.
    H.R. 3936 would provide motorized recreational 
opportunities in northern Utah by designating a system of 
approximately 337 miles of off-road-vehicle roads and trails as 
the Shoshone National Recreation Trail. From our viewpoint, 
this makes sense. OHV is an important and increasing demand on 
public lands that, when properly planned and monitored, can be 
accommodated without significant resource damage. Established 
OHV roads and trails meet the demand for this form of 
recreation by potentially decreasing unauthorized use in more 
sensitive areas.
    The Forest Service, along with our Federal, State and local 
partners, have been working to establish an OHV trail system. 
In my written testimony, I discuss the specific trail knowledge 
and ownership; those figures were based upon preliminary 
estimates and do not reflect any additional miles currently 
under consideration for designation. We will work with our 
partners and the Subcommittee to clarify which roads and trails 
will be included in the designation.
    To be fully successful in this endeavor, several issues, 
including public access to roads and trails that cross both 
public and private lands, will need to be explored in the 
coming months; and support from local communities is critical. 
The good news is that the State of Utah is working closely with 
the Forest Service, and the local communities have written 
letters in support of the Shoshone National Recreation Trail.
    Challenges for the future include providing access to the 
trail from local communities. As the population of northern 
Utah has grown, so has the demand for various forms of 
recreation, including OHV opportunities. Many of the foothills 
and private lands adjacent to the National Forest System lands 
have been developed, and in many cases public lands are not 
accessible.
    The completed trail, as envisioned by H.R. 3936, will 
require, for any future expansion, acquisitions and new rights 
of way and easements.
    We cannot do this alone. We must develop partnerships with 
the State, county and municipal jurisdictions to ensure that 
public access is secured before development of any future trail 
occurs, since it often becomes impossible to acquire access 
after those areas are fully developed. In addition, successful 
management of this trail will require coordination with State 
and local jurisdiction, especially in areas of regulation that 
govern OHV use.
    Mr. Chairman, we realize that the National Forest System 
lands in northern Utah play a significant role in providing 
outdoor recreation opportunities. However, in the context of 
all land ownership, we are only a small part of the whole. A 
large percentage of the land is in private ownership and close 
working relationship with private landowners and local 
governments would be required to fully implement the Shoshone 
National Recreation Trail. We are pleased to work with members 
of the Committee, other Federal agencies and officials from the 
State of Utah, as well as local governments, to provide varied 
recreational opportunities and to ensure that the natural 
resources are managed appropriately.
    We support the enactment of this bill. This concludes my 
testimony, and I will be happy to answer any questions you may 
have.
    Mr. Radanovich.  Thank you very much, Ms. Manning.
    [The prepared statement of Ms. Manning follows:]

 Statement of Gloria Manning, Associate Deputy Chief, Forest Service, 
              U.S. Department of Agriculture, on H.R. 3936

    Mr. Chairman, thank you for inviting me here today to discuss H.R. 
3936. I am Gloria Manning, Associate Deputy Chief, National Forest 
System.
    H.R. 3936 would designate a series of existing and planned roads 
and trails on and around the Wasatch-Cache National Forest in Utah, as 
the Shoshone National Recreation Trail. The Forest Service, Bureau of 
Land Management, State of Utah and local governments, and other groups 
and individuals have been working for some time to establish the 
Shoshone Trail. Because H.R. 3936 is consistent with existing authority 
that allows the Secretaries of the Interior and Agriculture to 
designate the existing portions of this trail system, and with 
landowner approval, those portions not on Federal lands, as a National 
Recreation Trail, we support enactment of this bill.
    H.R. 3936 would provide motorized recreation opportunities in 
northern Utah by designating 337 miles of existing OHV (Off Highway 
Vehicle) roads and trails as the Shoshone National Recreation Trail. 
From our viewpoint this makes sense. OHV use is an important and 
increasing demand on public lands, that when properly planned and 
monitored, can be accommodated without significant resource damage. 
Established OHV roads and trails meet the demand for this form of 
recreation while potentially decreasing unauthorized uses in more 
sensitive areas.
    The Forest Service, along with our Federal, State, and local 
partners has been working to establish an OHV trail system. Currently 
under consideration in the ongoing effort to establish the Shoshone 
Trail are the 337 miles of existing roads and trails that now permit 
OHV use and would be designated the Shoshone National Recreation Trail 
under H.R. 3936. Lands involved include 199 miles of National Forest 
System roads, all of which currently allow OHV use, Bureau of Land 
Management roads, State of Utah roads, and private and county roads.
    To be fully successful in this endeavor, several issues, including 
public access to roads and trails that cross both public and private 
lands, will need to be explored in coming months, and support from 
local communities is critical. The good news is that many communities 
are already working to develop motorized recreation opportunities. 
Examples of on-going planning can be seen in Box Elder County in 
Northern Utah, Cache County near Logan, and the Wasatch Front counties 
of Weber and Davis.
    Challenges for the future include providing access to the trail 
from local communities. As the population of northern Utah has grown, 
so has the demand for various forms of recreation, including OHV 
opportunities. Many of the foothills and private lands adjacent to 
National Forest System lands have been developed, and in many cases, 
public lands are not accessible.
    The completed trail, as envisioned by H.R. 3936, will require the 
acquisition of new rights of way and easements. We cannot do this 
alone. We must develop partnerships with the State, county, and 
municipal jurisdictions to ensure that public access is secured before 
development occurs, since it often becomes impossible to acquire access 
after those areas are fully developed.
    In addition, successful management of this trail may require state 
and local jurisdictions to carefully consider the impact of their 
regulations that govern OHV use. For example, those communities along 
the Wasatch Front that become integral portals to the trail system may 
also permit ATV use on city streets, as currently allowed by the 
community of Richfield.
    Mr. Chairman, we realize that National Forest System lands in 
northern Utah play a significant role in providing outdoor recreation 
opportunities. However, in the context of all land ownership, the 
National Forest System is only a part of the whole. A large percentage 
of the land is in private ownership and close working relationships 
with private landowners and local governments would be required to 
fully implement the Shoshone National Recreation Trail.
    We are pleased to work with Members of this Committee, other 
Federal agencies and officials from the State of Utah, as well as local 
governments to provide varied recreation opportunities and ensure that 
natural resources are managed appropriately.
    This concludes my testimony. I will be glad to answer any questions 
you may have.
                                 ______
                                 
    Mr. Radanovich.  We will hear from Mr. Smith and open up 
the panel for questions.
    Mr. Smith, welcome and again please keep your testimony to 
5 minutes.

    STATEMENT OF P. DANIEL SMITH, SPECIAL ASSISTANT TO THE 
    DIRECTOR, NATIONAL PARK SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Smith. Mr. Chairman, thank you. I will submit testimony 
in full, and I will summarize from it. Thank you for the 
opportunity to present the Department of the Interior's views 
on H.R. 1906, a bill to adjust the boundaries of Pu'uhonua O 
Honaunau National Historical Park, and I will defer that 
pronunciation to the Congresswoman and to you.
    Mr. Radanovich. Patsy, he butchered it.
    Mr. Smith. And I knew I was going to, Mr. Chairman.
    The Department supports H.R. 1906, if amended in 
conformance with this testimony. The legislation will adjust 
the authorized boundary of the national historical park to 
include the remainder of Ki'ilae Village and other adjoining 
lands within the park.
    The proposed expansion is located on lands immediately 
adjacent to, but outside, the park boundary and would add 
approximately 805 acres to the 182 acres already within the 
park. About one-half of the proposed new acreage, about 413 
acres, contains known important physical remains of the Native 
Hawaiian culture associated with this national historical park.
    The Department previously testified in support of S. 1057, 
a similar bill that passed the Senate on October 17, 2001. That 
bill would add only 238 acres to the 182 acres already within 
the park and would authorize the addition of an additional 165 
acres by donation if the lands were ever acquired. In light of 
the National Park Service's interest in protecting the entire 
Ki'ilae Village and its archeological resources, we recommend 
that H.R. 1906 be amended to incorporate the language of the 
Senate-passed bill.
    The Congresswoman has described the historical significance 
of this national historical park, and so I will not repeat 
that.
    In 1992, a boundary study was prepared for the park. Both 
the master plan and the boundary study called for adding, 
quote, ``the balance of Ki'ilae Village to the park.'' up until 
last year, the property was unavailable because its ownership 
was not clear. The three heirs to the property have now settled 
the ownership issue thereby clearing the way for the Park 
Service to acquire the land.
    This bill, if amended, would allow the boundary of the park 
to be expanded to protect this significant cultural resource. 
In light of the President's commitment to reducing the backlog 
of deferred maintenance needs within the National Park System 
before incurring additional financial burdens, it is 
encouraging to note the present owner of the land authorized 
for acquisition in the Senate-passed bill may consider donating 
one portion of the property to the National Park Service; while 
the other portion would be available for purchase, and that 
parcel has been appraised.
    Funds to purchase this property would be subject to NPS 
service-wide priorities and the availability of appropriations. 
Since no development is contemplated within the boundary 
adjustment area, no line item construction or significant 
development costs are anticipated for this historical park, 
although there would be some one-time costs after acquisition 
to conduct an inventory of archeological resources and remove 
non-native vegetation. We do not expect an increase to the 
park's base operating budget.
    There is strong local support to include these resources 
within the national historical park, and it reflects a high 
level of cooperation, consultation and the strong commitment of 
local communities and governments toward the park. The local 
support for land acquisition and the potential donation of a 
portion of this land are important parts of the Department's 
decisions to support this legislation.
    Mr. Chairman, that concludes my statement, and I look 
forward to answering any questions the Committee may have.
    Mr. Radanovich.  Thank you, Mr. Smith.
    [The prepared statement of Mr. Smith follows:]

   Statement of P. Daniel Smith, Special Assistant to the Director, 
  National Park Service, U.S. Department of the Interior, on H.R. 1906

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 1906, a bill to adjust the 
boundaries of Pu'uhonua o Honaunau National Historical Park, in the 
State of Hawaii.
    The Department supports H.R. 1906, if amended in conformance with 
this testimony. The legislation will adjust the authorized boundary of 
Pu'uhonua o Honaunau National Historical Park to include the remainder 
of Ki'ilae Village and other adjoining lands within the park. The 
proposed expansion is located on lands immediately adjacent to, but 
outside the park boundary, and would add approximately 805 acres to the 
182 acres already within the park. About one-half of the proposed new 
acreage contains known important physical remains of the native 
Hawaiian culture associated with the Pu'uhonua o Honaunau.
    The Department previously testified in support of S. 1057, a 
similar bill that passed the Senate on October 17, 2001. That bill 
would add only 238 acres to the 182 acres already within the park and 
would authorize the addition of another 165 acres by donation if the 
lands were ever acquired. In light of the National Park Service's 
interest in protecting the entire Ki'ilae Village and its 
archaeological resources, we recommend that H.R. 1906 be amended to 
incorporate the language of the Senate-passed bill.
    Ki'ilae is an ancient Hawaiian settlement dating back to the late 
12th or early 13th centuries. The settlement remained active until the 
1930's, making it one of the last traditional Hawaiian villages to be 
abandoned. The proposed boundary adjustment consists of adding lands 
containing the archaeological remains of this Hawaiian village. Lands 
to be added to the park contain more than 800 archaeological sites, 
structures and features. These include at least 25 caves and 10 heiau 
(Hawaiian temples), more than 20 rock platforms, 26 rock wall 
enclosures, over 40 burial features, residential compounds, a holua 
(recreational slide used by Hawaiian royalty), canoe landing sites, a 
water well, numerous rock walls and a wide range of agricultural 
features.
    The proposed expansion dates back to a 1957 archaeological survey 
conducted by the Bishop Museum. This survey found that the greater part 
of the ancient village of Ki'ilae, as well as other significant 
Hawaiian archaeological resources, were left outside of the park 
boundaries established by Congress in 1955. Pu'uhonua o Honaunau's 1972 
Master Plan identifies Ki'ilae Village as one of the park's major 
resources and the master plan graphics show village remains extending 
well beyond the existing park boundaries. In 1992, a boundary study was 
prepared for the park. Both the master plan and the boundary study call 
for adding the ``balance of Ki'ilae Village'' to the park. Up until 
last year, the property was unavailable because its ownership was not 
clear. The three heirs to the property have now settled the ownership 
issue, thereby clearing the way for the Park Service to acquire the 
land. This bill, if amended, would allow the boundary of the park to be 
expanded to protect this significant cultural resource.
    In light of the President's commitment to reducing the backlog of 
deferred maintenance needs within the National Park System before 
incurring additional financial burdens, it is encouraging to note that 
the present owner of the land authorized for acquisition in the Senate-
passed bill may consider donating one portion of the property to the 
National Park Service, while the other portion would be available for 
purchase and has been appraised at $4.6 million. Funds to purchase this 
property would be subject to NPS servicewide priorities and the 
availability of appropriations. Since no development is contemplated 
within the boundary adjustment area, no line item construction or 
significant development costs are anticipated, although there would be 
some one-time costs after acquisition to conduct an inventory of 
archaeological resources and remove non-native vegetation. We do not 
expect an increase to the park's base-operating budget.
    There is strong local support to protect and include these 
resources within the Pu'uhonua o Honaunau National Historical Park, and 
it reflects the high level of cooperation, consultation, and strong 
commitment of local communities and governments toward the park. Local 
support for land acquisition projects is an important part of the 
Department's support for this legislation.
    That concludes my testimony. I would be glad to answer any 
questions that you or the members of the subcommittee may have.
                                 ______
                                 
    Mr. Radanovich.  And I want to thank every member of the 
panel, and we will go ahead and open up for questions. Since 
our ranking member is not here, Patsy, would you like to do the 
first round?
    Mrs. Mink. Just a question with respect to my bill. I had 
understood that one portion had already been purchased by the 
land trust and is being held for subsequent purchase by 
National Park Service; is that incorrect information that I 
have?
    Mr. Smith. My understanding is that TPL is in very near 
negotiations for the acquisition of that one parcel. I do not 
know the exact details of that, but I know they are very 
involved, and if they haven't actually done the final--they may 
be waiting for action here, but they are in very serious 
negotiation, and I believe they have reached agreement on the 
cost.
    I can provide that for the record, Mr. Chairman, if that 
would be acceptable.
    Mrs. Mink. Thank you very much.
    Mr. Radanovich. Thank you.
    Mr. Radanovich. Any other questions from the panel, Mr. 
Simpson or Mr. Duncan?
    Mr. Duncan. Mr. Smith, I noticed in your oral statement, 
you left out something that is in your written statement and 
that is that this property was appraised. But in your written 
statement, it said appraised for 4.6 million.
    Mr. Smith. That is correct. That is an old habit. I don't 
believe in divulging appraisals. It comes from my time at GSA, 
and until somebody signs on the bottom line--it has been 
appraised at 4.6 million and that was submitted in my formal 
testimony, but I decided to leave it out of my summary.
    Mr. Duncan. The Senate bill only authorized 500,000, or has 
authorized such sums as may be necessary, but somewhere there 
is 500,000--I guess in the last appropriations bill; is that 
correct?
    Mr. Smith. Congressman, I do not know the details of what 
the Senate bill has actually appropriated. I can find that for 
the record.
    Mr. Duncan. There is a big difference between 500,000 and 
4.6 million is the only thing I am wondering about.
    Mr. Smith. And I do not have that included in my briefing 
here.
    I did not testify on the Senate bill last year, and I am 
not aware of what the appropriators have done on that side of 
the Congress.
    Mr. Duncan. All right. Thank you very much.
    Mr. Radanovich. Thank you very much.
    Any other questions of this panel? I do have one question 
for Ms. Manning.
    Do you believe by directing OHV traffic into, you know, 
designated or appropriated places, does that help with 
unauthorized OHV traffic in areas that are not designated? Does 
it kind of help to concentrate it?
    Ms. Manning. Yes. In most of our forests we do have 
designated trails, and usually the public abides by it. We have 
some people, like always, who won't; but in most cases, they 
just want a place to use their OHV vehicles.
    Mr. Radanovich. Very good. Thank you.
    And I want to thank the panel very much for your 
testimonies. And we will go ahead now and move on to the last, 
third panel.
    Mr. Radanovich. On our third panel, we have Mr. Gene 
Williams with the Sandhills Resort, Inc., in Saint Anthony, 
Idaho; Mr. Dave Morrow, Deputy Director of the Division of 
Parks and Recreation in the Utah Department of Natural 
Resources; and Mr. Bryce Nielson, County Commissioner from Rich 
County, Utah. Gentlemen, welcome.
    Mr. Radanovich. Mr. Williams, we will start with you. And 
again, if you could limit your testimony to 5 minutes, that 
would be terrific. We appreciate the fact that you are here 
today and we are anxious to hear what you have to say. You may 
begin.

    STATEMENT OF GENE WILLIAMS, SANDHILLS RESORT, INC., ST. 
                         ANTHONY, IDAHO

    Mr. Williams. Thank you. Gene Williams. My wife, Shirley 
Williams, over here. The reason I mention that is because wives 
are always the backbone of a company.
    First, I would like to thank you for the opportunity to 
testify today on H.R. 2818. I am in full support of H.R. 2818 
as it enables me to purchase land that I have already developed 
into my resort.
    I own land adjacent to the Saint Anthony Sand Dunes, which 
is called the Sandhills Resort. I purchased this land in 1972. 
In 1981, the Bureau of Land Management conducted a wilderness 
study and included portions of what I thought was my property. 
When I purchased the site, the current owner and the original 
owner of the land, Freemont Fulmer, who purchased the land in 
1955 from the Department of the Interior, confirmed the 
property boundaries. However, in 1992, a new survey was taken 
and the new property lines went right through our home and 
excluded our garage, the driveway, resort facilities, the 
improvements to the land, telephone lines.
    The Bureau of Land Management has been able to sell the 
acreage--has been trying to sell the acreage in question back 
to me. But because of the wilderness study area that surrounds 
it, they have not been able to do that. I am unable to sell, 
refinance or make improvements to the land because of 
encroachment and wilderness study issues.
    Here I am, without any of the things I had built for the 
last 30 years of my life. My title to my property is clouded. I 
cannot sell, get a loan on the property or make any 
improvements, as the wilderness study area is crowding me in.
    My family and I have worked all our lives to build this 
resort. We have made improvements and beautified the area for 
recreationalists. Under the 1992 survey, my land extends into 
the middle of the sand dunes, instead of where I have built 
facilities, which is entirely useless. It drops off the lava 
flow and back into living sand dunes that, during this last 
windstorm a couple of days ago, had to have moved at least 8 to 
10 feet.
    It is imperative to our livelihood and the livelihood of 
this resort that I am able to purchase this land that I have 
worked on, lived on and improved all my life.
    This park has been in public use for many years, and due to 
its location, proximity--near two rural towns and on the route 
to Yellowstone and Island Park--it has become a familiar and 
popular family vacation area. As you can see from the pictures, 
I have maintained and improved the integrity of the park to 
coincide with the wilderness surroundings. It is an easily 
accessible, safe place for families to come and play on the 
sand.
    Again, I thank you for the opportunity to testify about the 
purchase of this land. This parcel of 10.23 acres, as it now 
stands, is useless as wilderness study area, but full of use 
for many multiple-use recreationalists, my family and me. It is 
a win-win situation for the Bureau of Land Management and the 
constituents of Idaho. This land was included in the wilderness 
study area of 1981 by accident, and should not be held captive 
for that mistake.
    I would like to make one last comment that when Fremont 
Fulmer purchased this land--it is an L-shaped piece of 
property--he purchased it as an ``L'' shape on purpose, the 
biggest portion of the ``L'' being on top of a flat lava rock 
cliff. That included the parking area and the area where I now 
have all my facilities.
    Off of the edge of the cliff, he built a swimming pool; 
that was a little tail of the L-shaped piece of property. He 
did that on purpose, rather than buying a square, because it 
gave him better use of the top of the flat lava rock, and that 
is the area that we no longer have. It is all out in the sand 
dunes now.
    Your time efforts and votes are appreciated, and I would 
like to thank you for that matter. And that is the end of my 
testimony. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Williams. We 
appreciate your testimony.
    [The prepared statement of Mr. Williams follows:]

Statement of Gene Williams, Owner and Operator of the Sandhills Resort, 
                    St. Anthony, Idaho, on H.R. 2818

    First, I would like to thank you for the opportunity to testify 
today on H.R. 2818. I am in full support of H.R. 2818, as it enables me 
to purchase land that I have already developed into my resort. I own 
land adjacent to the Saint Anthony Sand Dunes, which is called the 
Sandhills Resort. I purchased this land in 1972. In 1981 the Bureau of 
Land Management conducted a Wilderness Study and included portions of 
what I thought was my property.
    When I purchased this site, the current owner and the original 
owner of the land, Freemont Fulmer, who purchased the land in 1953 from 
the Department of the Interior, confirmed the property boundaries. 
However, in 1995 a new survey was taken and the new property lines went 
right through our home and excluded our garage, the driveway, resort 
facilities, and improvements to the land. The Bureau of Land Management 
has been working to sell the acreage in question back to me, but 
because of the wilderness study area that surrounds it they have not 
been able to. I am unable to sell, refinance, or make improvement to 
the land because of encroachment and wilderness study issues. I am left 
without any of the things I had built for the last 20 years. The title 
to my property is clouded and I cannot sell, get a loan on the property 
or make any improvements due to the wilderness study area crowding me 
in.
    My family and I have worked all our lives to build this resort. We 
have made improvements and beautified the area for recreationalists. 
Under the 1995 survey, my land extends into the middle of the sand 
dunes instead of where I have built facilities, which is entirely 
useless. It is imperative to our livelihood and the livelihood of this 
resort that I am able to purchase this land that I have worked on, 
lived on, and improved all my life.
    This park has been in public use for many years and due to its 
location proximity near two rural towns and en route to the Island 
Park--Yellowstone area, it has become a familiar and popular family 
vacation area. As you can see from the pictures, I have maintained and 
improved the integrity of the park to coincide with the wilderness 
surroundings. It is an easily accessible safe place for families to 
come and play on the sand.
    Again, I thank you for this opportunity to testify about the 
purchase of land. This parcel of 10.23 acres as it now stands is 
useless as a wilderness study area and full of use for many multiple 
use recreationalists, my family, and me. It is a win-win situation for 
the Bureau of Land Management and the citizens of Idaho. This land was 
included in the Wilderness Study Area of 1981 by accident and should 
not be held captive because of that mistake. Your time, effort, and 
vote on this matter are appreciated.
                                 ______
                                 
    [A map attached to Mr. Williams' statement follows:]
    [GRAPHIC] [TIFF OMITTED] 78733.003
    
    Mr. Radanovich. Mr. Morrow, welcome to the Committee. 
Please begin your testimony.<plus-minus>

  STATEMENT OF DAVID K. MORROW, DEPUTY DIRECTOR, DIVISION OF 
   PARKS AND RECREATION, UTAH DEPARTMENT OF NATURAL RESOURCES

    Mr. Morrow. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here representing the Department of Natural 
Resources. And it is also nice to get out of Utah where we have 
about 4 inches on the ground.
    Mr. Radanovich. Welcome to 90 degrees.
    Mr. Morrow. A little warmer here.
    It is nice to be here because it has taken a lot of work 
and a great cooperative effort between the Federal Government, 
the State and the local communities to be at this point in 
time.
    OHV use across the country and in the State of Utah is 
nothing new, but it is rapidly expanding. Clear back in 1972, 
President Nixon passed an executive order that required the 
establishment of policies and procedures to ensure the use of 
off-road vehicles on public lands would be controlled, directed 
so as to protect the natural resources. Thirty years later, 
now, many of us that are in the land management business still 
have not met those goals and objectives.
    In the State of Utah alone there are 130 off-highway 
vehicles, and that number has increased since 1997 by about 197 
percent. Nationwide, they are increasing at 27 to 30 percent 
annually. With the growth of OHV users, they are seeking more 
and more opportunities to ride. And in the State of Utah, which 
is approximately two-thirds publicly owned, those areas that 
OHV users are seeking are the public lands.
    In an attempt to find a proactive solution to the growing 
number of OHV users, the Department of Natural Resources, the 
Forest Service and local communities looked at establishing a 
trail riding system in the northern part of the State. That 
system is what we are hearing today before the Committee.
    The system is comprised of about 337 miles of trails 
already open and designated for motorized use in both BLM and 
the Forest Service travel plans. There is an option for another 
172 miles of trails that could be added in the future, that are 
now on existing roads, but not currently open to OHV travel and 
use.
    The Shoshone National Recreation Trail, as proposed, is a 
well-thought-out effort, and it has involved, as I indicated, a 
strong degree of cooperation between Federal, State and local 
agencies. We have received the endorsement of all four counties 
that surround the trail system and nearly 16 communities that 
would be affected by the development of this trail opportunity.
    The proposed trail system is, as I mentioned, located on 
existing roads already designated as motorized. We would ask 
the Committee to strongly consider a favorable ruling on this 
bill. It is a proactive measure to take to create both riding 
opportunities and better organize existing motorized use on a 
log area of the Cache National Forest.
    Again, I appreciate the opportunity to speak to you on 
behalf of the Department of Natural Resources and ask the 
Committee to consider a favorable vote on this bill. And that 
concludes my testimony. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Morrow.
    [The prepared statement of Mr. Morrow follows:]

   Statement of David K. Morrow, Deputy Director of Operations, Utah 
Department of Natural Resources, Division of Parks and Recreation, Salt 
                            Lake City, Utah

    Mr. Chairman, Members of Congress, I thank you for the opportunity 
to address you today.
    The Shoshone National Recreational Trail System, a 337-mile 
proposed trail system in Northern Utah, provides an excellent 
opportunity to balance the needs of the area's rapidly expanding number 
of off highway vehicles (OHV-ATV's and motorcycles) while at the same 
time protecting the natural resources of the lands affected. Past land 
use activities such as ranching, mining, and timber harvesting left 
thousands of miles of old roads and trails that are being discovered by 
OHV enthusiasts. Some of this use is appropriate and some is not.
    This proposal will effectively identify, designate, sign and map a 
trail system. It will provide outstanding riding experiences on routes 
that can be managed and maintained while simultaneously provide 
protection for the area's outstanding resources.
    It is estimated that there is a total of 130,000 OHV's, both 
registered and unregistered, for the state. Over 50 percent of 
registered machines are from counties north of Salt Lake City. The 
number of registered OHV's have risen 197% in Utah just since 1997. OHV 
sales have increased nationally at 27-30 percent per year for the last 
five years. The increase in OHV sales is increasing much faster than 
the identification of appropriate riding areas.
    With this growth, OHV users are seeking more opportunities. Since 
approximately two-thirds of all Utah lands are publicly managed, the 
riding public naturally turns to us. Results from a user survey 
conducted by Utah State University for the Division Parks and 
Recreation in 2001 captured these concerns:
        1) LOf the more important issues affecting OHV use in Utah was 
        ``having enough places to ride,'' followed by ``closing off too 
        many areas.''
        2) LThe average one-way distance traveled to get to an 
        appropriate place to ride an OHV is about 100 miles.
        3) LThe U.S. Forest Service and Bureau of Land Management 
        should, ``Recognize that trails and roads are an important 
        aspect of recreation and should be given a high priority for 
        inventory, signing, development of loop trails, and improving 
        trail access.''
        4) LRemote ATV trails make special places available to many 
        types of individuals including children and should receive more 
        emphasis by Federal and state land managers.
        5) LUnregulated use leads to resource degradation, user 
        conflicts and reduces the quality of the recreational 
        experience.
        6) LRiding on established roads and trails is the most popular 
        with OHV owners.
    In an attempt to find proactive solutions to these issues, the Utah 
Department of Natural Resources was asked to identify motorized riding 
opportunities in the northern part of the state, similar to the 
opportunities that are provided by the Paiute Trail. The Utah Division 
of Parks and Recreation, a division of the Department of Natural 
Resources, is responsible for the administration of the state's off-
highway vehicle program and enforcement of state laws regarding use of 
these vehicles, and as such the division was asked to take the lead 
role.
    The Paiute Trail is a motorized trail system that was developed in 
central Utah in the late 1980s. The system, now recognized nationally 
as a model for proactive OHV management on public lands, has 587 miles 
of designated trails that link 12 communities, two state parks, the 
Great Western Trail and many other points of interest. In addition 
there are sixteen participating communities that are connected to the 
trail system. The Paiute Trail became the model for the proposed 
Shoshone National Recreation Trail System.
    The Paiute Trail grew from very humble beginnings out of the very 
small central Utah community of Circleville in 1988. Two friends; one 
an employee of the Forest Service the other a Paiute County 
commissioner, sat on the tailgate of a pickup truck talking about the 
latest access challenges to their favorite hunting spots as the Forest 
Service was going to close down a major access road to ATV use. The 
two, not to be denied access, devised a plan to develop an alternative 
to closure. Their plan was endorsed by the Forest Service, Bureau of 
Land Management and later the Utah Division of Parks & Recreation. The 
Paiute Trail has grown in popularity now serving over 60,000 riders 
annually. The annual Paiute Trail Jamboree attracts approximately 800 
participants, 60 percent from out-of state. There are many positive 
things attributed to the trail, but perhaps the most important is its 
role in providing a proactive solution to the mis-use of public lands 
yet provides riding opportunities for a growing segment of recreational 
users.
    Representatives from the Utah Department of Natural Resources, U.S. 
Forest Service, Bureau of Land Management, OHV enthusiasts met over a 
2-3 month period to identify trail riding opportunities, similar to 
those experienced on the Paiute Trail. The group was also encouraged to 
identify existing trails and roads, ones used but perhaps not properly 
maintained for OHV use. The group focused its attention on an area of 
the state that was within easy driving distance from the majority of 
registered users in northern Utah and was already being utilized as a 
winter snowmobile trail system.
    The first conceptual plan was very promising: the group identified 
337 miles of existing and open roads and trail, 172 miles of existing 
routes not designated open but possibly available by agreement, and 
found that only 12 miles to trail that would need to be constructed. 
The majority of the proposed trail system was located on U.S. Forest 
Service and Bureau of Land Management administered land, accessible to 
four counties and almost sixteen communities. The Federal agencies 
responsible for administering the area previously identified the 
proposed routes in their travel plans and were in support of this 
conceptual plan. A few modifications were made, both additions and a 
few deletions that enabled the group to achieve the needed approval 
from land management agencies.
    A series of community meetings were scheduled in each of the four 
counties adjacent to the trail: Rich, Cache, Box Elder and Weber. The 
meetings allowed community leaders and interest groups to review the 
conceptual plan, provide input, and voice their support. Representation 
at the meetings included, county commissioners, mayors, city council 
members, motorized and non-motorized trail users, environmental groups 
and other state and Federal land managers. The proposal met with 
unanimous support. Even those who were against OHV use, viewed the 
proposed trail system as being positive. One participant commented, 
``Perhaps more developed trail riding opportunities would decrease the 
impact on more sensitive areas.'' A non-motorized trail user commented, 
``perhaps more motorized trail opportunities would reduce conflicts 
with non-motorized trail users.''
    In each meeting the majority of participants viewed the creation of 
the trail as a proactive way to address the growing demand for 
motorized riding opportunities. The rural communities praised the plan 
for its potential economic benefit, citing the rural communities 
located near the Paiute Trail as positive examples of what could be 
achieved. It was noted, that Marysvale, a small central Utah town, had 
benefited significantly from the creation of the Paiute Trail. In the 
late 1980's Marysvale had only two businesses, now with the addition of 
the trail, boasts of over 20 businesses. The Marysvale Chamber of 
Commerce states that, ``Because of the Paiute ATV Trail, we have become 
a destination community.'' The Sevier County Travel Council boasts, 
``The Paiute ATV Trail has become the most important tourist attraction 
in our County. The trail not only brings thousands of ATV riders to our 
area, it also provides access to some of the most beautiful recreation 
areas in the state...and well over $4 million is injected into the 
County annually.''
    In the two weeks prior to presenting this testimony in favor of 
creating the Shoshone National Recreational Trail, the Department of 
Natural Resources received letters of endorsement for its establishment 
from each of the four counties that are adjacent to the proposed trail. 
A letter of support from the Utah State Institutional Trust Lands 
Administration (SITLA), committing the use of roads and trails that 
cross lands under their jurisdiction was also provided. (see 
attachments provided)
    The Shoshone National Recreation Trail provides a rare opportunity 
to satisfy a growing segment of recreational users in a way that 
assists land management agencies to better protect our natural 
resources. There is no major opposition in part due to the thoughtful 
and prudent manner in which the trails were identified. The majority of 
the proposed routes are open to OHV use and are already identified in 
Forest Service and BLM access plans. Lands identified as desired routes 
but not yet approved can be added at a future date in accordance with 
the National Trail System Act. If the desired additions involve private 
property, the additions can only be made with the approval of the owner 
of the land upon which the trail is to be located.
    The Shoshone National Recreation Trail bill is one we 
enthusiastically ask you to recommend favorably. Executive Order 11644 
made by then President Nixon, requires the establishment of policies 
and procedures that would ensure that the use of off-road vehicles on 
public lands would be controlled and directed so as to protect the 
resources of those lands, to promote the safety of all users of those 
lands and to minimize conflicts among the various uses of those lands 
(Nixon, 1972). Thirty years later, public land managers have yet to 
fully address OHV use on public lands through these measures. The 
National Trails System Act is an option that is consistent with the 
objectives to more effectively manage OHV use. More importantly, it is 
a widely supported opportunity to meet the demands on an increasingly 
popular recreational activity while protecting (our) valuable resource 
base.
                                 ______
                                 
    [Attachments to Mr. Morrow's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 78733.004
    
    [GRAPHIC] [TIFF OMITTED] 78733.005
    
    [GRAPHIC] [TIFF OMITTED] 78733.006
    
    [GRAPHIC] [TIFF OMITTED] 78733.007
    
    [GRAPHIC] [TIFF OMITTED] 78733.008
    
    [GRAPHIC] [TIFF OMITTED] 78733.009
    
    Mr. Radanovich. Mr. Nielson, welcome; and please begin your 
testimony.

   STATEMENT OF BRYCE R. NIELSON, COUNTY COMMISSIONER, RICH 
                          COUNTY, UTAH

    Mr. Nielson. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to travel from a small snow-covered 
community in northern Utah to this wonderful Washington, D.C., 
to address you today.
    I have been involved in local politics as a mayor and 
county commissioner for the last 16 years. As a native of Utah, 
lands and natural resources are part of my heritage and I love 
them dearly. In our county Federal and State lands are integral 
to agriculture, economy, recreation and our lifestyles.
    Over my lifetime, I have seen changes in uses, attitudes 
and values of these lands, and I struggle with what their 
future will be. When the Division of Parks and Recreation 
approached our county to consider a proposal to create the 
Shoshone National Trail System, our support was immediate.
    Recreation is a significant factor in Rich County. In the 
winter, thousand of snowmobiles visit groomed trails and the 
surrounding playgrounds. In the summer, boats and personal 
watercraft utilize Bear Lake. But unfortunately the owners of 
off-highway vehicles have no opportunity to ride them in a 
safe, well-designated trail system.
    Most OHV enthusiasts respect the environment and private 
property and pay thousands of dollars in registration fees and 
property taxes, but cannot use public roads. Consequently, they 
end up in the wrong place at the wrong time without a trail 
system, frequently impacting and damaging watersheds, harassing 
wildlife and livestock, negatively affecting the recreational 
experience of others. This has created a host of present and 
potential problems that we, as community leaders, have not had 
the ability or the funding to address.
    You have been provided with an excellent overview of the 
proposal and the existing OHV status, so I won't dwell on these 
facts and figures. What I will focus on: As a county 
commissioner, I have had the opportunity to speak to many 
individuals, both elected officials and citizens, about this 
proposal. You have before you letters of support from the four 
counties involved in the Shoshone Trail, and I know they are 
excited about the development of this system. The Rich County 
Commission, after reviewing the proposed trail map, supports 
the concept.
    We have been assured there will be no taking of private 
land without compensation. We are aware that some of the roads 
may cross private property, but the county commissioners 
consider them right-of-use roads and as part of the trail 
system.
    Grazing on Federal and State lands is critical to our 
livestock industry, and with proper planning and construction 
of fence crossings, the OHV riders can stay on the trail with 
little impact. Improvements of the existing roads should 
minimize accidents and provide for safer travel opportunities 
through these lands. Increased signage and law enforcement will 
impact individuals who have no regard for the environment or 
other living things and hopefully they will be convinced to 
change their ways.
    The recreational economy of Rich County is presently 
located on the shores of Bear Lake, but this trail system would 
provide some excellent opportunities for economic development 
in small rural communities that now only see traffic passing by 
on their way to somewhere else.
    Finally, with the approval of this proposal, we look 
forward to involving all public interest in this planning and 
development.
    I sincerely hope that this Committee will provide favorable 
recommendation for the Shoshone National Trail bill. It will 
provide the opportunity to develop relationships between the 
stewards of these lands, the resources and the entities that 
are responsible for their management and protection, and our 
citizens that use and cherish them.
    Thank you, Mr. Chairman for the opportunity to testify on 
this bill.
    Mr. Radanovich. Thank you very much, Mr. Nielson. We 
appreciate your testimony.
    [The prepared statement of Mr. Nielson follows:]

Statement of Bryce R. Nielson, Chairman, Rich County Commissioner, Rich 
                              County, Utah

    Mr. Chairman, Members of Congress, I appreciate the opportunity to 
travel from a small, snow covered county in Northern Utah to Washington 
D.C. to address you today.
    I have been involved in local politics as the Mayor of Garden City 
and as a Commissioner in Rich County, Utah for the last sixteen years. 
As a native of Utah, our lands and natural resources are part of my 
heritage and I love them dearly. In our county, the Federal and State 
lands are integral to our agriculture, economy, recreation and 
lifestyle. Over my lifetime I have seen the changes in the uses, 
attitudes and values of these lands and I struggle with what their 
future will be.
    When the Division of Parks and Recreation approached our county to 
consider a proposal to create the Shoshone National Trail System, 
support was immediate. Recreation is a significant factor in Rich 
County. In the winter, thousands of snowmobiles visit groomed trails 
and surrounding playgrounds. In the summer, boats and PWC's utilize 
beautiful Bear Lake. But unfortunately, the use of OHV's, which is 
increasing dramatically with the influx of visitors, have little 
opportunity to ride them in a safe, well designated trail system. Most 
OHV enthusiasts respect the environment and private property and they 
do pay thousands of dollars in registration fees and property taxes but 
cannot travel public roads. Consequently, they end up in the wrong 
place at the wrong time without a trail system, frequently impacting 
and damaging watersheds, harassing livestock and wildlife, and 
negatively affecting the recreational experiences of others. This has 
created a host of present and potential problems that we, as community 
leaders, have not had the ability or the funding to address.
    You have been provided with an excellent overview of the proposal 
and the existing OHV recreational status, so I will not dwell on those 
facts and figures. What I will focus on is that as a County 
Commissioner, I have had the opportunity to speak to many individuals, 
both elected officials and citizens about this proposal. Commissioners 
that live within the area covered by the Piaute Trail are happy to have 
it there and state that cooperative efforts between Federal, State and 
local governments and the public have resulted in positive recreational 
and economic opportunities. You have before you letter of support from 
the four counties involved with the Shoshone Trail. I cannot speak for 
them personally, but I know they are excited about the Shoshone Trail.
    Rich County, after reviewing the current proposed trail map, is 
solidly behind the proposal. There were a few things we needed to be 
assured of before we committed. There will be no ``taking'' of private 
land without compensation to develop this system. Some roads my cross 
private property but the County considers them right of use (RS2477) 
roads which we will support as part of the trail system. Grazing on 
Federal and State lands is critical to our livestock industry and with 
proper planning and construction of fence crossings, OHV riders and can 
stay where they are supposed to be. We see improvements of existing 
roads that will minimize accidents and provide for safer travel 
opportunities through these lands. We expect increased signage and 
funding for law enforcement, so that individuals, who have no regard 
for the environment or the other living things using it, will be 
convinced to change their ways. The recreational economy in Rich County 
is presently concentrated in Garden City on the shores of Bear Lake, 
but this trail system would provide some excellent opportunities for 
other rural communities that now only see traffic passing through on 
the way to somewhere else. Finally, with the approval of this proposal, 
we look forward to involving all the public interests in its planning 
and development.
    I sincerely hope that this committee will provide a favorable 
recommendation for the Shoshone National Trail bill. It would provide 
us the opportunity to develop relationships between the stewards of 
these lands and their resources, the entities that are responsible for 
their management and protection and our citizens that use and cherish 
them.
                                 ______
                                 
    Mr. Radanovich. We will now open up the panel for any 
questions, and I will defer to Mr. Udall, if you have any.
    Mr. Udall of New Mexico. I am OK.
    Mr. Radanovich. Mike, did you have some questions?
    Mr. Simpson. Let me first apologize for my phone going off. 
I forgot to put it on vibrate.
    Mr. Williams, thank you for being here today. Hopefully, we 
can get this resolved after many, many years. And I understand, 
as the BLM testified, they are supportive. And welcome to 
Washington and I appreciate your testimony.
    Mr. Nielson, let me ask you just a question that came up as 
I was looking at the maps of these proposed trails and so 
forth--well, three or four of the proposed trails kind of end 
at the Idaho border.
    Mr. Nielson. Uh-huh.
    Mr. Simpson. Has there been any work with the State of 
Idaho to continue those throughout?
    Mr. Nielson. When we were approached by Dave's group, this 
was brought out because we do a lot of cooperative stuff with 
trail grooming and everything into Bear Lake County; however, I 
don't believe at this point in time--and Dave can help me on 
this, whether or not there has been any official contact with 
Idaho on this.
    Mr. Morrow. There has not. The intention was to go ahead 
and create the Shoshone Recreation Trail, that we would work in 
cooperation with Idaho to extend it in the future. The 
Commissioner mentioned that we have a very positive 
relationship in the winter months on a snowmobile trail, and we 
would hope to extend the summer trail in the same manner.
    Mr. Simpson. Thank you.
    Mr. Radanovich.  Thank you, Mr. Simpson.
    Any other questions of the panel?
    I do have two quick questions of Mr. Morrow. Has there been 
a lot of input from elected leaders, local elected leaders that 
are affected--let us start this over again.
    Has there been any input from elected leaders from the 
affected areas of this designation?
    Mr. Morrow. There has. We held community meetings in each 
of the four counties that are adjacent to the trail system, and 
in those meetings, we had city councilmen, county 
commissioners, users and representatives from the community. 
And in all of those meetings we received unanimous support for 
the proposed trail system.
    Mr. Radanovich. It is safe to say there is extensive local 
support for the project?
    Mr. Morrow. There is.
    Mr. Radanovich. Mr. Nielson, of this designation, are all 
the local counties supportive of it as well?
    Mr. Nielson. I met with all of the county commissioners 
from the four counties, and they all support it and are really 
quite excited about it. I think it provides some opportunities 
for these counties to get some connectivity that will help the 
area; and the local mayors are excited about it, and I hope to 
be able to see it to fruition.
    Mr. Radanovich.  I want to welcome the people that have 
just come here, but we are about ready to adjourn the meeting. 
Forgive us, but it did go rather smoothly today.
    Gentlemen, I want to thank you for your testimony and there 
being no further questions, this hearing is closed.
    [Whereupon, at 10:50 a.m., the Subcommittee was adjourned.]

    A statement from The Wilderness Society et al., submitted 
for the record by The Honorable George Radanovich follows:]
[GRAPHIC] [TIFF OMITTED] 78733.013

[GRAPHIC] [TIFF OMITTED] 78733.014

                                   - 

</pre></body></html>
